     Management Advisory Report



    Single Audit of the State of
Tennessee for the Fiscal Year Ended
           June 30, 2013




        A-77-14-00013 | July 2014
Single Audit of the State of Tennessee for the Fiscal Year
Ended June 30, 2013
A-77-14-00013
July 2014                                                                Office of Audit Report Summary

Objective                                Findings

To report internal control weaknesses,   The single audit reported:
noncompliance issues, and
unallowable costs identified in the         DHS did not ensure that all newly hired employees and
single audit to the Social Security          employees who transferred from other agencies completed the
Administration (SSA) for resolution          department’s conflict-of-interest form, DHS Code of Ethics and
action.                                      Standards of Conduct, and that the form was maintained in
                                             employee files.
Background
                                            The DDS did not have controls in place to ensure that all
The Tennessee Comptroller of the             consultative examination (CE) providers were included on the
Treasury conducted the single audit of       DDS’ License Checklist and verified with the Department of
the State of Tennessee. SSA is               Health and Human Services Office of Inspector General List of
responsible for resolving single audit       Excluded Individuals and Entities website.
findings related to its Disability
programs. The Department of Human        In addition, the single audit reported DHS did not follow
Services (DHS) is the Tennessee          departmental and State information system security policies, which
Disability Determination Services’       resulted in an increased risk of fraudulent activity or loss of data.
(DDS) parent agency.
                                         Recommendations

                                         We recommend that SSA:

                                         1. Determine whether the DDS has proper procedures in place
                                            related to employee conflict-of-interest concerns.

                                         2. Verify that the DDS developed appropriate controls to ensure
                                            proper licensure of all CE providers.

                                         Further, we made a recommendation to SSA in a prior report for
                                         corrective action on the finding related to information system
                                         security policies. We confirmed that SSA had taken appropriate
                                         corrective action to address this finding. Therefore, we will not
                                         repeat the recommendation.
MEMORANDUM
Date:      July 1, 2014                                                             Refer To:

To:        Gary S. Hatcher
           Senior Advisor
           Records Management and Audit Liaison Staff
From:      Inspector General
Subject:   Single Audit of the State of Tennessee for the Fiscal Year Ended June 30, 2013 (A-77-14-00013)

           This report presents the Social Security Administration’s (SSA) portion of the single audit of the
           State of Tennessee for the Fiscal Year ended June 30, 2013. 1 Our objective was to report internal
           control weaknesses, noncompliance issues, and unallowable costs identified in the single audit to
           SSA for resolution action.

           The Tennessee Comptroller of the Treasury performed the audit. The results of the desk review
           conducted by the Department of Health and Human Services (HHS) concluded that the audit met
           Federal requirements. In reporting the results of the single audit, we relied entirely on the
           internal control and compliance work performed by the Tennessee Comptroller of the Treasury
           and the reviews performed by HHS. We conducted our review in accordance with the Council
           of the Inspectors General on Integrity and Efficiency’s Quality Standards for Inspection and
           Evaluation.

           For single audit purposes, the Office of Management and Budget assigns Federal programs a
           Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability Insurance (DI) and
           Supplemental Security Income (SSI) programs are identified by CFDA number 96. SSA is
           responsible for resolving single audit findings reported under this CFDA number.

           The Tennessee Disability Determination Services (DDS) performs disability determinations
           under SSA’s DI and SSI programs in accordance with Federal regulations. The DDS is
           reimbursed for 100 percent of allowable costs. The Department of Human Services is the
           Tennessee DDS’ parent agency.




           1
            State of Tennessee, Single Audit Report for the Year Ended June 30, 2013
           http://www.comptroller.tn.gov/repository/SA/2013_TN_Single_Audit.pdf (last viewed June 16, 2014).
Page 2 - Gary S. Hatcher

The single audit reported:

      DHS did not ensure that all newly hired employees and employees who transferred from
       other agencies completed the department’s conflict-of-interest form, DHS Code of Ethics and
       Standards of Conduct, and that the form was maintained in employee files. 2 The corrective
       action plan indicated there is no policy, internal or otherwise, that requires DHS to maintain
       the form and it takes appropriate steps to inform employees of conflict-of-interest concerns.

      The DDS did not have controls in place to ensure that all consultative examination (CE)
       providers were included on the DDS’ License Checklist and verified with the HHS Office of
       Inspector General (OIG) List of Excluded Individuals and Entities (LEIE) website. 3 The
       corrective action plan indicated the DDS conducts qualification reviews on a periodic basis
       including State licensure checks and status under LEIE website. However, to improve
       controls the DDS has created a tracking tool that encompasses the credentialing verification
       activities and includes a cross check feature to ensure that all providers are subject to the
       checks.

We recommend that SSA:

1. Determine whether the DDS has proper procedures in place related to employee conflict-of-
   interest concerns.

2. Verify that the DDS developed appropriate controls to ensure proper licensure of all CE
   providers.

In addition, the single audit reported DHS did not follow departmental and State information
system security policies, which resulted in an increased risk of fraudulent activity or loss of
data. 4 The corrective action plan indicated that steps to address the issues have been taken.
Further, we made a recommendation to SSA in a prior report for corrective action on this
finding. 5 We confirmed that SSA had taken appropriate corrective action to address this finding.
Therefore, we will not repeat the recommendation.




2
    Id. at finding 2013-014.
3
    Id. at finding 2013-016.
4
    Id. at finding 2013-012.
5
 SSA OIG, Management Advisory Report, Single Audit of the State of Tennessee for the Fiscal Year Ended
June 30, 2011 (A-77-13-00010) May 2013.
Page 3 - Gary S. Hatcher

Please send copies of the final Audit Clearance Document to Shannon Agee. If you have
questions, contact Shannon Agee at (877) 405-7694, extension 18802
or Shannon.Agee@ssa.gov.




                                            Patrick P. O’Carroll, Jr.

Attachment

cc:
Lynn Bernstein
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
